ORIGINAL
i
No.

FILED
o u 0 8 2020
OFFICE OF THE CLERK
'PRF.ME COURT. U.S.

IN THE
SUPREME COURT OF THE UNITED STATES

BRANDON S.LAVERGNE
PETmONER
VS.
N. B URL CAIN. KTAL
RESPONDENTS)

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES FIFTH CIRCUIT OF APPEALS

ORIGINAL PETITION FOR A WRIT OF CERTIORARI

BRANDON S. LAV KRONE, DOC#42422?
DEATH ROW / CC.R, E-TTER, CELL #2
LOUISIANA STATE PENITENTIARY
ANGOLA, LOUISIANA 70712

-QUESTION(S) PRESENTED
1. Did the state actors Paul Smith, Amber Vittorio and Michael Vaughn violate my
61tl and 14* Amendment rights by finding me guilty of a rule violation for having a
defendant served with Legal Mail lor a lawsuit?
Bur! Cam violate my 5th 6th and 14* amendments rights when he refused
2. Did N.
.
.
to answer the disciplinary appeal for the legal man1 service's
3. Can a person use a prison negative mail list to both retaliate against a prisoner for
a lawsuit and to avoid being served for that same lawsuit ■:
4. Are blanket out going mail blocks legal?
5. Do I have a greater right to correspondence while in solitary confinement?
6, Can a federal district court evaluate facts and evidence during summary
juckment?
7. If a state actor lies in disciplinary reports and steals federal mail can he be granted
qualified immunity?
8..'is there a financial penalty for a dismissed disciplinary sentence if it was already served,
before the report was dismissed?

LIST OF PARTIES
N. BURL CAIN
MICHAEL VAUGHN
AMBER VITTORIO
PAUL SMITH

TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW
LIST OF PARTIES
TABLE OF CONTENTS
TABLE OF AUTHORITIES
OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION
INDEX OF APPENDIX
APPENDIX-A REPORT AND RECOMMENDATION
APPENDIX-B DISTRICT COURT JUDGMENT
APPENDIX-C DENIAL OF APPEAL
APPENDIX-D DENIAL OF REHEARING
APPENDIX-E
APPENDIX-F

TABLE OF AUTHORITIES

CASE
NUMBER

PAGE

CONSTITUTIONAL PROVISIONS
First Amendment of the United States Constitution
Fourth Amendment of the United States Constitution
Fifth Amendment of the United States Constitution
Sixth Amendment of the United States Constitution
Fourteenth Amendment of the United States Constitution
STATUTES
28 U.S. C.§ 1254(1)
28 U.S.C.§ 1257(a)
CASES
LaVergne v. Cain, Et Al, MD of La 15-34
LaVergne v. Martinez, WD of 6:13-2121
LaVergne v. Martinez, S.Ct. #14-6028
McCathy v. Madigun, 503 U.S. 140 (1992)
Harlow v. Fitzgerald, 457 U.S. 800 (1982)
Anderson v. Craighton, 483 U.S. 135 (1987)
Thornburgh v. Abbott, 109 S.Ct. 1879 (1987)
Procuier v.Martinez, 94 S.Ct. 1800 (1974)
Samford v. Dretke, 562 F.3d at681
Walker v. Bates, 23 F.2d 652, 658-59 (2nd Cir. 1994)
OTHER REFERENCES

IN THE
SUPREME COURT OF THE UNTIED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix C
to the petition and is Q reported at
;or,
[] has been designated for publication but is not yet reported; or, [x] is
unpublished
The opinion of the United States district court appears at Appendix _B to the
petition and is [x] reported at LaVergne v. Cain. Et AL MD of La. 15-34
or,
[] has been designated for publication but is not yet reported; or, Q is unpublished
[] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix____ to the petition and is
[] reported at
; or,
[] has been designated for publication but is not yet reported; or, Q is unpublished
The opinion of the ■
court appeal’s at Appendix_
_____To the petition and is
[] reported at__________
; or,
[] has been designated for publication but is not yet reported; or,
[] is unpublished

JURISDICTION
[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was
14 Oct. 19.
[] No petition for rehearing was timely filed in my case.
[] A timely petition few rehearing was denied by the United States Court of
Appeals on the following date: 18 Nov. 19. and a copy of the order denying
rehearing appears at Appendix D.
[] An extension of time to file the petition for a writ of certiorari was
granted to and including
(date) on________________
______(date) on Application No. A_______
The jurisdiction of this Court is involved under 28 U.S.C. § 1254(1).
[] For cases from state courts:
The date on which the United States Court of Appeals decided my case was
[] No petition for rehearing was timely filed in my case.
[] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:______
, and a copy of the order
denying rehearing appears at Appendix
[] An extension of time to file the petition for a writ of certiorari was
granted to and including___ (date) on
(date) n Application No. A
The jurisdiction of this Court is involved under 28 U.S.C. § 1257(a).

V
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1st Amendment right to speech in the courts of association
4th Amendment right to be secure in my property
5th Amendment right to equal protection and due process
6th Amendment right to represent myself

STATEMENT OF THE CASE
From July 2012 - June 2013 I wrote monthly letter to my then 11 year old daughter,
Bethany (Who is now 19). At the end of June 2012 I filed a lawsuit against my former wife
and the mother of Bethany. (See, LaVergne v. Martinez, W.D. of La 6:13-CV-2121)
The defendant Lainey had not complained about my letters to Bethany prior to the
lawsuit, but once the lawsuit was filed she called the prison and placed herself on my negative
mail list to retaliate against me for the suit. She knew stopping me from writing my daughter
would hurt me deeply.
When that, suit finally made its way to this United States Supreme Court [LaVergne v.
Martines, S.Ct. #14-6028] this court required me to have Lainey served within three (3) days
of signing this court's service affidavit. Under that mandate by this I had Lainey served by
my Father, James LaVergne. Lainey's mother called the prison complaining about Lainey
being sent, the copy of the petition in this court and this court's response waiver paper work.
Michael Vaughn the prison investigator wrote a false report claiming I had sent Lainey a
personal letter when he (Vaughn) knew it was legal mail. He had me placed in Administrative
Segregation and when I went before the disciplinary board consisting of Paul Smith and
Amber Vittorio I showed them copies of the legal mail and this court's sendee affidavit I
signed swearing under the penalty of perjury I would have the defendant Lainey served. Paul
and Amber still found me guilty and took 30 days phone privileges from me while I was in
solitary confinement. I appealed that disciplinary decision to the then Warden, N. Burl Cain
with the legal mail and service affidavit from this court attached to the appeal. Warden Cain
refused to answer that appeal.

1.

In December, 2014 someone claiming to be my crime victim's mother called the
prison saying she had got a letter from me. But this person did not give the correct, first or last
name of the motion. The prison received a copy of the letter which was not written to this
woman or anyone in her family. The prison in particular Michael Vaughn who previously lied
about the nature and content of the legal mail sent to my former wife, Lainey lied and said this
letter was written to my alleged crime victim's mother. The state maintained that lie for two
(2) years until through discovery they were forced to admit the letter had not been written to
the crime victim's mother as anyone in her family. None the less the prison blocked all my
out going mail to anyone not on my visiting list for about ninety (90) days based on this false
allegation. This mail block was put in place without any type of hearing. About a week after
the mail block was already in place Michael Vaughn accused me of sending a Christmas card
to my son claiming I had been told three (3) years before not to contact my son's mother. A
disciplinary board sentenced me to six (6) months of disciplinary lock down citing the legal
mail disciplinary conviction as a reason for such a harsh sentence. That was the same legal
mail disciplinary conviction the prison refused to answer the appeal on. Now after refusing to
answer the appeal the prison used that conviction to justify a harsh disciplinary sentence of six
(6) months of disciplinary solitary confinement while I was on the mail block. After I had
served almost the entire disciplinary sentence the prison admitted Michael Vaughn's
disciplinary report for the Christmas card was based on hearsay and threw out the disciplinary
conviction and let me of disciplinary lock down. But not before I had served over five (5)
months of the six (6) months sentence.

2.

While I was on the ninety (90) day mail block in solitary confinement Michael Vaughn stole
some of my mail. When discovery was carried out in the federal court it was discovered
Vaugh had stolen some legal mail the clerk's office of the United States Court of Appeal for
the Fifth Circuit was sending to me and even wrote a report admitting he had seized the legal
mail.
The federal district court ruled my issues dealing with the disciplinary hearing for the
legal mail sendee and the refusal of Warden N. Burl Cain to answer my disciplinary appeal
were “State law issues”. The federal district court granted qualified immunity to Cain and
Vaughn for stealing my mail, lying in reports and blocking my mail for ninety (90) days. The
federal district court also took it upon itself to rule I was the author of the letter to my alleged
murder victim's friend when I had neither admitted to writing it or gone to trial.
The federal court also dismissed my claims about the nearly six (6) months of disciplinary
lock down for the hearsay.
The United States Court of Appeal for the Fifth Circuit up held all the rulings and the
actions of the federal district court.
REASONS FOR GRANTING THE PETITION
Legal Mail Service
I was punished and lost thirty (30) days of privileges for the constitutionally
protected activity of having a defendant served with legal documents. I signed this
courts service affidavit swearing under the penalty of perjury I would have Lainey
Martinez served within three (3) days of signing it. Therefore, I was under a binding
mandate for this court to execute that service from this court. Yet the prison with full
knowledge of this still punished me for this activity protected by the 1st and 6th
amendments.
3.

As this court found in Me Cathy v. Madlgan, 503 U.S. 140 (1992) I have aright
to represent myself. If I had been represented by counsel and my counsel and my
counsel would have had Lainey served with those same documents, I would not have
been punished at all. Self representation must be protected.
False Disciplinary Reports and Qualified Immunity
I have shown in this suit where on at least three (3) occasions, Michael Vaughn
the prison investigator file false reports. In September, 2014, he intentionally filed a
report claiming I had sent Lainey Martinez a personal letter when he knew it was legal
mail from this United State Supreme Court.
Mail Block and Qualified Immunity
My out going mail was blocked for ninety (90) days to any one not on my
visiting list by Warden N. Burl Cain and Michael Vaughn. This was all based on the
lief that I had wrote my alleged murder victim's mother a letter. That was a false
allegation this defendants maintain for years until through discovery they were fcreed
to admit I had not within my alleged murder victim's mother or family. This mail
block violates both Thronburgh v. Abbott, 109 S.G. 1874 (1989) and Procider v.
Martinez, 94 S.Ct. 1800 (1974). Both these case clearly establish my out going mail
can not be blocked like that, especially based on a lie. Yet, the lower courts granted
the defendant qualified immunity for these actions. Then in mid December 2014 he
filed afalse report that I had wrote a letter to my crime victim's mother and based on
that false report blocked my our going mail to anyone not on my visiting list for
ninety (90) days while I was in solitary confinement. Than Vaughn filed afalse report
about the Christmas card to my son based on hearsay that landed me in solitary
confinement (Disciplinary confinement) for nearly six (6) months.
4.

Yet, this man was granted qualified immunity for the actions. This conclusion
violates Harlow F Fitzgerald, 457 U.S. 800 (1982) and Anderson v. Creighton, 483
U.S. 635 (1987). If Vaughn thought he was acting correctly said lawfully he would
not have been filing false reports to try to cover up his actions.
Stolen Mail and Qualified Immunity
Michael Vaughn was stealing my mail in addition to blocking it, during
discovery the state attorney actual^ gave me copies of legal mail Vaughn had stolen
and a report admitting this legal mail was being sent to me by the United States Court
of Appeal Fifth Circuit Clerk's Office. Yet again the lower courts granted Vaughn
immunity and dismissed my stolen mail claims against Vaughn.
Negative Mail List Used for Retaliation
My former wife, Lainey Martinez used the negative mail list as a tool of
retaliation against me for my speech in the courts when I filed LaVergne v. Martinez,
W.D. La 13-2121. Lainey knew stopping me from being able to write her home
would prevent me from having contact with my daughter, Bethany which was her
only way she knew she could hurt me. My daughter is now nineteen (19) years old
and I still can't write her because she is living with her mother. Lainey's retaliation
has been allowed to stand for nearly seven (7) years now. But for my lawsuit against
Lainey she would not have called here. Lainey let me write Bethany for a year and
only made a complaint after the suit was filed.

5.

Solitary Confinement Correspondence Rights
When Paul Smith and Amber Vittorio knowingly found me guilty of a false
disciplinary report which claimed I had sent a personal letter to Lainey Martinez
when they knew it was court order legal mail from this very United States Supreme
Court. I attached that legal mail and affidavit proof of service from this court to my
disciplinary appeal I sent to Warden N. Burl Cain. Warden Cain refused to answer
that appeal during discovery. The lower courts called this a state law issue and
dismissed it. Smith, Vittorio, and Warden Cain all knew they disciplined me for Is*
and 6th amendment protected activity. And Michael Vaughn had wrote the false
disciplinary report to set me up for the false disciplinary charges. Yet, the district
court and United States Court of Appeal, Fifth Circuit allow that to stand. This court
should not allow anything to be considered a state law issue when the violation of a
United States Constitution right is involved.

The prison then used this false

disciplinary conviction that they refused to answer the appeal on to justify both the
ninety (90) day mail block and the six (6) months of disciplinary lock down for the
Christmas card to my son.
Damages for Overturned Disciplinary Convictions
It appears there is a dispute between the United States Court of Appeals,
Second and Fifth Circuits of which this Honorable Court needs to resolve.

The

United States Court of Appeal 2nd Circuit in Walker v. Bates, 23 F.3d 652, 658-59
(U.S. 2 Cir. 1994) found that if you serve a disciplinary sentence and then you later
win on appeal damages is the only remedy. I made the argument I was sentenced to
six (6) months of disciplinary solitary confinement for sending a Christmas car’d to
my son who is not my crime victim nor is any member of his family my crime victim.
6.

Michael Vaughn wrote the report based on hearsay that I had been told three (3) years
before by a Scotty Kennedy not to write my son's mom's address. Kennedy had been
fired and then later plead guilty in federal court to falsifying records in a separate
incident incident prim- to Vaughn writing this report.

By the time I won my

disciplinary appeal I served nearly the whole six (6) months sentence. I sought
damages based on the Walker case and the federal district court dismissed my claim
and the United States Court of Appeal Fifth Circuit upheld the dismissal I have a
first amendment right to assemble with my son and his mother.

Further the

disciplinary court cited my disciplinary conviction for the legal mail service to my
former wife in September 2014 as a reason for such a harsh sentence.
The prison refused to answer the appeal for the legal mail service, but used the
disciplinary conviction for that service to enhance the Christmas card sentence. That
is a 5* and 14th amendment violation.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted

BRANDON S. I^§dkE, PRO SE
DATE:

7.

